<html>
<title> - IMPROVING CAREER AND TECHNICAL EDUCATION TO HELP STUDENTS SUCCEED IN THE WORKFORCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                IMPROVING CAREER AND TECHNICAL EDUCATION
               TO HELP STUDENTS SUCCEED IN THE WORKFORCE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 27, 2015

                               __________

                           Serial No. 114-33

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-211 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Marcia L. Fudge, Ohio,
Glenn Thompson, Pennsylvania           Ranking Minority Member
Dave Brat, Virginia                  Susan A. Davis, California
Buddy Carter, Georgia                Raul M. Grijalva, Arizona
Michael D. Bishop, Michigan          Gregorio Kilili Camacho Sablan,
Glenn Grothman, Wisconsin              Northern Mariana Islands
Steve Russell, Oklahoma              Suzanne Bonamici, Oregon
Carlos Curbelo, Florida              Mark Takano, California
                                     Katherine M. Clark, Massachusetts
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 27, 2015.................................     1

Statement of Members:
    Fudge, Hon. Marcia, L., Ranking Member, Subcommittee On Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     9
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Hiftalin, Dr. Deneece G., President, Salt Lake Community 
      College, Salt Lake City, UT................................    13
        Prepared statement of....................................    15
    Major, Dr. Douglas, Superintendent/CEO, Meridian Technology 
      Center, Stillwater, OK.....................................    21
        Prepared statement of....................................    13
    Johnson, Mr. Tim, Director of Government Relations, National 
      Center for Construction Education and Research, Baton, LO..    32
        Prepared statement of....................................    34
    Ricks, Dr. Irelene, Director, Diversity in Life Science 
      Programs, Keyston Symposia on Molecular and Cellular 
      Biology, Silverthorne, CO..................................    26
        Prepared statement of....................................    28

Additional Submissions:
    Ms. Fudge:...................................................
        Prepared statement of Jim Langevin.......................     6
    Thompson, Hon. Glenn, a Representative in Congress from the 
      state of Pennsylvania:.....................................
        Prepared statement of Career and Technical Education 
          Caucus.................................................    10
 
                     IMPROVING CAREER AND TECHNICAL
                       EDUCATION TO HELP STUDENTS
                        SUCCEED IN THE WORKFORCE

                              ----------                              


                       Tuesday, October 27, 2015

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2261, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Thompson, Brat, Carter, 
Bishop, Grothman, Fudge, Davis, Grijalva, Bonamici, Takano, and 
Clark.
    Also Present: Representatives Kline, Scott of Virginia and 
Polis.
    Staff Present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Amy Raaf 
Jones, Director of Education and Human Resources Policy; Nancy 
Locke, Chief Clerk; Dominique McKay, Deputy Press Secretary; 
Brian Newell, Communications Director; Krisann Pearce, General 
Counsel; James Redstone, Professional Staff Member; Alex Ricci, 
Legislative Assistant; Emily Slack, Professional Staff Member; 
Alissa Strawcutter, Deputy Clerk; Juliane Sullivan, Staff 
Director; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Staff Assistant; Denise 
Forte, Minority Staff Director; Brian Kennedy, Minority General 
Counsel; Alexander Payne, Minority Education Policy Advisor; 
Veronique Pluviose, Minority Civil Rights Counsel; and Rayna 
Reid, Minority Education Policy Counsel.
    Chairman Rokita. A quorum being present, the Subcommittee 
on Early Childhood, Elementary, and Secondary Education will 
come to order.
    Good morning, everyone, and welcome to today's hearing on 
career and technical education. I would like to thank our 
witnesses for joining us as we explore opportunities to better 
serve America's workforce.
    Young adults are entering a job market today that is vastly 
different than the one that existed just a generation ago. 
Technological advances and the growth of a global economy have 
significantly changed the kinds of jobs available and the 
skills required to do them, making quality education and 
training vital ingredients to success in today's workplaces.
    This new reality has been painfully evident in the wake of 
the recent recession. We are more than 6 years into the so-
called recovery, yet millions of Americans continue to struggle 
with finding a good-paying job. Meanwhile, industries critical 
to our economy--health care, engineering, and manufacturing, 
for example--have jobs to fill and not enough qualified 
applicants to take them, a problem we have come to know as the 
skills gap.
    Recognizing the urgent need to close the gap and put 
Americans back to work, Republicans and Democrats came together 
last Congress to fix a broken and outdated job training system. 
The bipartisan, bicameral effort resulted in what we call the 
Workforce Innovation and Opportunity Act, a commonsense 
solution to modernize and improve the Federal workforce 
development system. The Workforce Innovation and Opportunity 
Act will help workers obtain skills for 21st century jobs and 
cultivate a modern workforce that evolving American businesses 
truly need.
    But we still have more work to do. By reauthorizing the 
Carl D. Perkins Career and Technical Education Act, we have an 
opportunity to help even more Americans, especially younger 
Americans, to enter the workforce with the tools and knowledge 
necessary to compete in the high-skilled, in-demand jobs of our 
economy--in short, to compete in a 21st century world and win. 
Last reauthorized in 2006, the law provides Federal support for 
State and local programs focused on preparing high school and 
community college students for technical careers.
    Now, unfortunately, many of these career and technical 
education programs have not kept pace with the changing 
workforce. In a report released by the Counsel for Chief State 
School Officers, education leaders explained that, quote, 
``Career education in too many of our secondary schools 
reflects an outdated model that tolerates low expectations and 
is often misaligned with the evolving needs of the current 
labor market.''
    With more than 14 percent of young adults unemployed and 
the highest level of unfilled jobs since 2001, it's no wonder 
States have started to take action. My home State of Indiana, 
for example, is partnering with local businesses to develop a 
new high school curriculum that better meets the needs of local 
communities and ensures that students are prepared to enter 
high-skilled jobs right after earning their diploma.
    As Governor Mike Pence testified at a hearing here earlier 
this year, quote, ``For those students who are not bound for 
the traditional 4-year college, we must still ensure that they 
can thrive in future careers. And one way to do this is to 
again make career and technical education a priority,'' 
unquote.
    By working with the private sector to develop resources for 
successful career and technical education programs, Indiana has 
made incredible gains over the last 2 years. The State has 
helped thousands of hard-working Hoosiers join the workforce 
and attracted more good-paying jobs for people in our 
communities. It's our hope that the success we've experienced 
in Indiana not only continues for our State, but is replicated 
across the country.
    The goal at the Federal level and what we are here to 
discuss today is how to ensure investment in these State and 
local efforts is paying off for students that we all aim to 
serve. To help reach that goal, we should consider reforms that 
encourage States to align high school and postsecondary course 
work with the needs of the workforce. This will require a look 
at existing Federal requirements, many of which, in my opinion, 
are duplicative and can hinder State and local efforts to 
development and implement their own successful programs.
    Helping Americans compete and succeed in today's workforce 
remains one of the committee's leading priorities, and today's 
discussion is an important part of that effort. I look forward 
to hearing from our panel of witnesses as we work to improve 
the Perkins Act and strengthen support for young Americans as 
they enter the workforce.
    And before I recognize my friend Ranking Member Fudge, I 
would like to note that one of our witnesses today, Dr. Douglas 
Major, is a resident of Stillwater, Oklahoma. On Saturday, the 
people of Stillwater and the surrounding communities were 
celebrating Oklahoma State University's homecoming when a 
driver crashed into the homecoming parade. This terrible 
tragedy injured more than 40 individuals and killed four 
others.
    Dr. Major, or behalf of this committee, I want to extend my 
deepest sympathies to you, the people of Stillwater, and the 
entire Oklahoma State University community. We pray for the 
recovery of those who remain hospitalized and in critical 
condition, and we lift up our thoughts and prayers to the 
victims and their families.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Young adults are entering a job market today that is vastly 
different from the one that existed a generation ago. Technological 
advances and the growth of a global economy have significantly changed 
the kinds of jobs available and the skills required to do them, making 
quality education and training vital ingredients to success in today's 
workplaces. This new reality has been painfully evident in the wake of 
the recent recession. We are more than six years into the so-called 
recovery, yet millions of Americans continue to struggle with finding a 
good-paying job. Meanwhile, industries critical to our economy - health 
care, engineering, and manufacturing, for example - have jobs to fill 
and not enough qualified applicants to fill them; a problem we have 
come to know as ``the skills gap.''
    Recognizing the urgent need to close the gap and put Americans back 
to work, Republicans and Democrats came together last Congress to fix a 
broken and outdated job training system. The bipartisan, bicameral 
effort resulted in the Workforce Innovation and Opportunity Act, a 
commonsense solution to modernize and improve the federal workforce 
development system. The Workforce Innovation and Opportunity Act will 
help workers attain skills for 21st century jobs and cultivate the 
modern workforce that evolving American businesses need.
    But we still have more work to do. By reauthorizing the Carl D. 
Perkins Career and Technical Education Act, we have an opportunity to 
help more Americans - especially younger Americans - enter the 
workforce with the tools and knowledge necessary to compete for the 
high-skilled, in-demand jobs in our economy. Last reauthorized in 2006, 
the law provides federal support for state and local programs focused 
on preparing high school and community college students for technical 
careers.
    Unfortunately, many of these career and technical education 
programs have not kept pace with the changing workforce. In a report 
released by the Council for Chief State School
    Officers, education leaders explained, ``Career education in too 
many of our secondary schools reflects an outdated model that tolerates 
low expectations and is often misaligned with the evolving needs of the 
current labor market.''
    example, is partnering with local businesses to develop a new high 
school curriculum that better meets the needs of local communities and 
ensures students are prepared to enter high-skilled jobs right after 
earning their diploma. As Governor Mike Pence testified at a hearing 
earlier this year, ``For those students who are not bound for the 
traditional four-year college, we must still ensure that they can 
thrive in future careers, and one way to do this is to again make 
career and technical education a priority.''
    By working with the private sector to develop resources for 
successful career and technical education programs, Indiana has made 
incredible gains over the last two years: The state has helped 
thousands of hardworking Hoosiers join the workforce and attracted more 
good-paying jobs for people in our communities. It is our hope the 
success we've experienced in Indiana can be replicated across the 
country.
    The goal at the federal level, and what we are here to discuss 
today, is to ensure our investment in these state and local efforts is 
paying off for the students we aim to serve. To help reach that goal, 
we should consider reforms that encourage states to align high school 
and postsecondary coursework with the needs of the workforce. This will 
require a look at existing federal requirements, many of which are 
duplicative and can hinder state and local efforts to develop and 
implement successful programs.
    Helping Americans compete and succeed in today's workforce remains 
one of the committee's leading priorities, and today's discussion is an 
important part of that effort. I look forward to hearing from our panel 
of witnesses as we work to improve the Perkins Actand strengthen 
support for young Americans as they enter the workforce.
    Before I recognize Ranking Member Fudge, I would like to note that 
one of our witnesses today, Dr. Douglas Major, is a resident of 
Stillwater, Oklahoma. On Saturday, the people of Stillwater and the 
surrounding communities were celebrating Oklahoma State University's 
homecoming, when a driver crashed into the homecoming parade. This 
terrible tragedy injured more than 40 individuals and killed four 
others.
    Dr. Major, on behalf of the committee, I want to extend my deepest 
sympathies to you, the people of Stillwater, and the entire Oklahoma 
State University community. We pray for the recovery of those who 
remain hospitalized and in critical condition, and we lift up in our 
thoughts and prayers the victims and their families. Thank you for 
being with us today.
                                 ______
                                 
    Mr. Major. Yes, sir. Thank you.
    Chairman Rokita. And thank you for being able to continue 
to be with us today.
    I now would like to recognize Ranking Member Fudge for her 
opening remarks.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    Thank you all for being here today.
    Today we are going to examine the critical role of career 
and technical education programs that prepare our Nation's 
students for success in college and career. Many of these 
programs are funded through the Carl D. Perkins Career and 
Technical Education Improvement Act of 2006.
    According to the Georgetown University Center on Education 
and the Workforce, in the next 5 years 65 percent of all jobs 
in the United States will require training beyond high school. 
In my home State of Ohio career and technical education is 
available at every public high school. Other States should 
follow Ohio's lead so career and technical education is 
available at every high school across this Nation.
    The importance of CTE cannot be overstated. Its programs 
equip our Nation's students with the skills they need to 
succeed and in a rapidly evolving 21st century economy.
    Unfortunately, after harmful sequestration cuts, public 
funding for CTE is at historic lows. It is clear that we should 
not continue to cut funding for critical programs like CTE that 
engage students with an integrated curriculum of core academic 
content and real world, work-based relevance. Instead, we must 
support high-quality CTE programs.
    Currently, our Nation faces an unprecedented skills gap, 
and CTE programs are integral to closing that gap. We must do 
everything we can to maintain and strengthen these programs.
    For many years, the Perkins Act has supported the 
development of CTE programs that cultivate in-demand skills 
among secondary and postsecondary students. We must do more to 
spur innovation with the delivery of CTE to reward and 
replicate programs achieving positive outcomes for students and 
industry and to ensure CTE is positioned to drive economic 
success through better workforce alignment and increased 
collaboration.
    Reauthorization of the Carl D. Perkins Career and Technical 
Education Act presents this committee with an opportunity to 
ensure that all students are equipped with the skills to 
succeed in a rapidly evolving 21st century economy.
    I look forward to hearing from our distinguished panel of 
witnesses and working with the majority to reauthorize the act. 
Further, I have received, Mr. Chairman, a letter from our 
colleague, Mr. Langevin, and he would like to enter it into the 
record.
    Chairman Rokita. Without objection.
    [The information follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Ms. Fudge. Thank you very much.
    And, Dr. Major, my condolences as well.
    I yield back.
    [The statement of Ms. Fudge follows:]

      Prepared Statement of Hon. Marcia L. Fudge, Ranking Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Good morning and thank you, Chairman Rokita.
    Today's hearing will examine the critical role of career and 
technical education programs in preparing our nation's students for 
success in college and career. Many of these programs are funded under 
the Carl D. Perkins Career and Technical Education Improvement Act of 
2006.
    According to Georgetown University's Center on Education and the 
Workforce, in the next five years, 65 percent of all jobs in the United 
States' economy will require training beyond high school. In my home 
state of Ohio, career and technical education (CTE) is available at 
every public high school.
    Other states should follow Ohio's lead, so career and technical 
education is available in every high school across the country. The 
importance of CTE cannot be overstated--its programs equip our nation's 
students with the skills they need to succeed in a rapidly evolving 
21st century economy.
    Unfortunately, after harmful sequestration cuts, public funding for 
CTE is at historic lows. It is clear that we should not continue to cut 
funding for critical programs, like CTE, that engage students with an 
integrated curriculum of core academic content and real-world, work-
based relevance.
    Instead, we must support high quality CTE programs.Currently, our 
nation faces an unprecedented skills gap, and CTE programs are integral 
to closing that gap. We must do everything we can to maintain and 
strengthen these programs.
    For many years, the Perkins Act has supported the development of 
CTE programs that cultivate in-demand skills among secondary and 
postsecondary students.
    We must do more to spur innovation in the delivery of CTE, to 
reward and replicate programs achieving positive outcomes for students 
and industry, and to ensure CTE is positioned to drive economic success 
through better workforce alignment and increased collaboration.
    Reauthorization of the Carl D. Perkins Career and Technical 
Education Act presents this Committee with an opportunity to ensure 
that ALL students are equipped with the skills to succeed in a rapidly 
evolving 21st century economy.
    I look forward to hearing from our distinguished panel of 
witnesses, and
    working with the Majority to reauthorize the Perkins Act.
    Thank you and I yield back.
                                 ______
                                 
    Chairman Rokita. Thank you, Ranking Member Fudge.
    Pursuant to Committee Rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    [The information follows:]Thompson
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Rokita. I will now turn to the introduction of our 
distinguished witnesses.
    First off, Dr. Deneece Huftalin is the president of the 
Salt Lake Community College in Salt Lake City, Utah. SLCC is a 
comprehensive community college serving more than 60,000 
students, including approximately 29,000 CTE students. SLCC 
works with school districts in the Salt Lake City area to 
ensure CTE programs offered by those institutions put students 
on track for high-wage, high-demand jobs. As president, Dr. 
Huftalin works closely with industry leaders to strengthen 
SLCC's responsiveness to workforce needs.
    Welcome.
    Next, Dr. Douglas Major is the superintendent and CEO of 
Meridian Technology Center in Stillwater, Oklahoma. The center 
provides customized education and training services for 
individuals, industries, and communities. The center partners 
with local business to align its curriculum with business needs 
and works with local high schools and 2-year colleges to ensure 
students may receive credit towards both a high school diploma 
and an associate's degree. Dr. Major is a past president of the 
Association for Career and Technical Education and has served 
on the Oklahoma Employment Security Commission.
    Welcome, again.
    Dr. Irelene Ricks is director of Diversity in Life Science 
Programs with Keystone Symposia on Molecular and Cellular 
Biology here in Washington. Dr. Ricks oversees the Keystone 
Symposia's Fellows program, the Underrepresented Scholarship 
and Early-Career Investigator Travel Award programs, and 
additional mentoring programs that take place in connection 
with Keystone Symposia's life science research conferences. She 
has served as a grants administrator at Howard University and a 
policy analyst for the White House Office of Management and 
Budget.
    Welcome.
    Mr. Tim Johnson is director of government relations with 
the National Center for Construction Education and Research in 
Baton Rouge, Louisiana. The National Center for Construction 
Education and Research works with the construction industry to 
create standardized training and credentialing programs for the 
industry. In addition to his work with NCCER, Mr. Johnson has 
worked as the director of training for the Associated Builders 
& Contractors.
    Welcome to you.
    I will now ask our witnesses to stand and raise your right 
hand.
    [Witnesses sworn.]
    Chairman Rokita. Let the record reflect that the witnesses 
have answered all in the affirmative.
    And you may be seated.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You each have 5 minutes to 
present your testimony. And just like the traffic lights, when 
1 minute is left the light will turn yellow. I'm not sure a 
traffic light stays yellow for a minute, but you get the point.
    I can say something about my spouse and traffic.
    When your time has expired, the light will turn red. At 
that point, I'll ask you to wrap up your remarks as best you 
are able. Members will each have 5 minutes to ask questions of 
you then.
    So we'll start with Dr. Huftalin. You are recognized for 5 
minutes.

  TESTIMONY OF DR. DENEECE G. HUFTALIN, PRESIDENT, SALT LAKE 
            COMMUNITY COLLEGE, SALT LAKE CITY, UTAH

    Ms. Huftalin. Good morning, Chairman Rokita, Ranking Member 
Fudge, and members of the committee. Thank you for the 
opportunity to appear today to discuss this important issue. My 
name is Deneece Huftalin, and I serve as the president of Salt 
Lake Community College, having served at the college in various 
leadership capacities for over 23 years.
    Salt Lake Community College, as you heard, is an 
accredited, student-focused, comprehensive community college 
meeting the diversities of the Salt Lake Valley. Home to more 
than 60,000 students each year, Salt Lake Community College is 
the largest supplier of transfer students to Utah's 4-year 
institutions and a perennial top 10 college nationally for 
total associate's degrees awarded.
    Twenty percent of our students identify as minority, 10 
percent identify as having some disability, and last fall 64 
percent of our incoming students were first generation. We are 
also proud to serve 642 veteran students and have consistently 
been named as a top college for veterans by Military Times.
    The college is also Utah's leading provider of workforce 
development programs, with more than 28,000 students enrolled 
in CTE courses last year. With 211 certificate and degree 
programs, SLCC offers a breadth of workforce training 
opportunities for Salt Lake County residents.
    Career and technical education programs are designed to 
prepare students to enter the workforce immediately upon 
completion. Students can enter our college in noncredit or 
credit-bearing CTE programs and can earn short-term 
certificates as well as associate degrees. Our CTE programs 
range from traditional vocational programs, like welding and 
building construction, to newer programs, such as 
biomanufacturing and digital animation.
    The Carl D. Perkins Act is a vital source of financial 
support for Salt Lake Community College and for all community 
colleges. Over the last several years, as the recession 
weakened State investment toward higher education, Perkins 
funding was crucial to our ability to maintain and grow key CTE 
programs for our students at a time when our enrollment was 
rapidly increasing.
    For the 2016 fiscal year, Salt Lake Community College 
received approximately $1.25 million in Perkins funds. The 
college uses those funds to improve CTE offerings throughout 
the institution.
    Acquiring modern equipment is imperative for state-of-the-
art CTE programs. These programs are costly to maintain and 
often require significant financial investment to ensure we 
have the latest technologies and equipment to train our 
students to enter today's ever-advancing and technical 
workplace.
    The college has used Perkins funds to purchase a wide range 
of items, such as dental hygiene x-ray view boxes, materials 
fatigue testers, and CNC machining equipment, all items we 
would be unable to purchase without the Perkins funding. In 
addition, Perkins funding has allowed us to ramp up our 
training in aviation maintenance avionics to meet industry 
demand and to maintain high-quality training in automotive 
diesel training and building construction, all critical 
industries which contribute to a healthy economy.
    While Perkins funding primarily supports advanced equipment 
needs, Perkins dollars also strengthen the essential student 
support services many of our students need to be successful. As 
we strive to increase our completion rates, Perkins funding is 
essential to enhance advising and disability resource center 
services.
    As I close my remarks, I'd like to share two brief examples 
of how we are using Perkins funding to meet the needs of both 
our employers and our students.
    A few months ago, the Boeing Company of Salt Lake, on 
behalf of several major aerospace manufacturing companies, 
approached the State and its educational partners about working 
collectively to provide more trained workers for the State's 
rapidly growing aerospace industry. Within a short timeframe, 
we created the Utah Aerospace Pathways Program. Under this 
pilot program, high school students enroll in a specialized set 
of courses in aerospace manufacturing.
    The students take one semester in high school, followed by 
a second semester at Salt Lake Community College or the Davis 
Applied Technology College. They then participate in a 48-hour 
paid internship with local aerospace partners, and upon 
successful completion of their coursework and internship will 
graduate with a certificate in aerospace manufacturing. The 
certificate allows students to begin a career immediately in 
the aerospace industry at a livable wage.
    The training provided through this program will center on 
machining, fabrication, and composite skills, all CTE fields 
that are increasingly in demand in aerospace and other advanced 
manufacturing industries. We are proud to be part of this 
collaborative effort which demonstrates best practices in CTE 
using local industry data to establish relevant, strong career 
programs between secondary, higher, and industry leaders.
    My second example of CTE at work relates to one of our 
recent graduates. As a single mother of two and a 14-year 
veteran of the United States Army, Darlene needed a career 
change. Working as a concrete contractor, she knew it would be 
a matter of time until the physical strain took its toll.
    Darlene enrolled in our Non-Destructive Testing program 
with hopes of coupling her critical thinking and analytical 
skills with her strong work ethic. Darlene completed in 2 years 
and received multiple employment offers promising exceptional 
benefits.
    Career and technical education has always been and will be 
the very core of our mission at Salt Lake Community College. 
The Perkins program is critical to our ability to provide these 
in-demand programs for industry and for thousands of students 
like Darlene.
    We appreciate your past support of the Perkins program and 
encourage your current support as this worthwhile program is 
considered for reauthorization. I would be happy to address any 
questions from the committee.
    [The testimony of Ms. Huftalin follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    Chairman Rokita. Thank you for your testimony.
    Dr. Major.

 TESTIMONY OF DR. DOUGLAS MAJOR, SUPERINTENDENT/CEO, MERIDIAN 
            TECHNOLOGY CENTER, STILLWATER, OKLAHOMA

    Mr. Major. Thank you, Chairman Rokita, Ranking Member 
Fudge, and all members of the committee, for the invitation to 
be with you today to testify on behalf of Meridian Technology 
Center and career and technical education, or CTE, a topic that 
I'm very passionate about. Today I'm representing Meridian 
Technology Center in north-central Oklahoma, where I serve as 
superintendent. I'm also a past president of the Association 
for Career and Technical Education.
    Meridian Technology Center is a publicly funded CTE school. 
We offer opportunities in health, trade and industry, 
information technology, and STEM-related curriculum to a 
diverse range of both secondary and postsecondary students. 
This morning, I would like to take a few minutes to highlight 
some of the hallmarks of our quality CTE programs.
    First, our curriculum is based upon industry-recognized 
standards and is guided by employers, trade association 
representatives, and community leaders working with our 
teachers and administrators. This year, 294 individuals are 
involved in our advisory committees and give us in-depth input 
on curriculum as well as commit to helping our students 
throughout the year by providing ongoing support, job-shadowing 
opportunities, and on-the-job training placements.
    In addition, Meridian is also involved in statewide 
industry sector initiatives. For example, we participate in an 
aerospace consortium in which multiple technology centers 
contract with the liaison between our local schools and the 
aerospace employers in our State. This ensures that our program 
offerings meet the needs of employers and students beyond our 
geographic bounds.
    Second, we have high expectations for our students to 
demonstrate the technical, academic, and employability skills 
they need for success. Experience tells us that once engaged in 
technical curriculum, many students begin to recognize the 
importance of their academic classes. Many also begin to 
consider college as a viable pathway for the first time.
    We encourage our students to be prepared for entry into 
postsecondary opportunities, regardless of whether that is 
their immediate plan or not. Through our Citizenship Ready 
efforts, including working with career and technical student 
organizations, we help students learn the employability skills 
that businesses want in addition to their technical skills.
    Third, we focus on career exploration opportunities and 
career guidance and counseling. Students too often pass through 
the educational system without a plan for their future. 
Meridian uses some of our Perkins funds for career exploration 
and guidance to ensure that all students, even prior to their 
enrollment at Meridian, can access information that will help 
them make smart career decisions, an area that we would like to 
see expanded in the use of Perkins earlier in the educational 
cycle for more career exploration.
    Fourth, our coursework is relevant to students, and for 
many the opportunity to participate in CTE courses as a high 
school student is the hook that keeps them in school. Because 
our courses are typically project based and address real world 
problems, it's easy for students to find a purpose in the 
curriculum. For example, a student who aspires to be a labor 
and delivery nurse can apply their science, English, and math 
lessons in clinical rotations at their local hospital while 
still in high school.
    For the vast majority of secondary students, the 
opportunity to participate in applied learning provides them 
with the engagement for success and has resulted in higher 
graduation rates on our campus, 98.7 percent, compared to the 
rates of our partner schools, ranging from 75.5 percent to 95 
percent.
    Finally, we work to ensure that there are clearly defined 
pathways for our students, or Programs of Study as they are 
defined in Perkins, from secondary to postsecondary education. 
In many curriculum areas, Meridian works with degree-granting 
institutions to ensure that our programs of study aligns with 
theirs. Students who graduate from Meridian have the 
opportunity to receive higher learning credit at those 
institutions and may earn up to half of the credits they need 
for a 2-year degree while still in high school.
    Through my involvement in ACTE, I've had the opportunity to 
visit numerous other States and have discovered that my school 
is not unique. High-quality CTE programs are prevalent across 
this country and have success rates similar to ours. We need to 
shine a spotlight on these programs to make sure that all 
students are given the opportunity to learn in a way that meets 
their needs in an applied, hands-on learning environment.
    At the Federal level, the reauthorization of Perkins is 
Congress' opportunity to ensure that these learning experiences 
are available to every student nationwide. As Congress 
considers reauthorization, I would like to encourage emphasis 
on the high-quality elements that have made Meridian a success, 
but in a way that allows local flexibility for each educational 
institution to meet the needs of their students and their local 
economic environment. We also need more resources to support 
more students. CTE should be recognized as an integral part of 
a robust education system, and Perkins funds should be 
available to all schools that are willing to embrace quality.
    In closing, I would love to see CTE embraced as a way to 
engage students in a rigorous academic study and prepare them 
for postsecondary success, whether that takes them directly 
into a career or further study, and I strongly believe that 
this should be the new norm for our K-12 education system.
    Again, thank you for the opportunity to provide testimony, 
and I look forward to your questions.
    [The testimony of Mr. Major follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Chairman Rokita. Thank you, Doctor.
    Dr. Ricks, you are recognized for 5 minutes.

  TESTIMONY OF DR. IRELENE RICKS, DIRECTOR, DIVERSITY IN LIFE 
 SCIENCE PROGRAMS, KEYSTONE SYMPOSIA ON MOLECULAR AND CELLULAR 
                BIOLOGY, SILVERTHORNE, COLORADO

    Ms. Ricks. Good morning, Chairman Rokita, Ranking Member 
Fudge, and members of the subcommittee. Thank you for the 
opportunity to submit testimony to the Committee on Education 
and the Workforce and to share my perspective on improving 
career and technical education to help students succeed in the 
workforce. Specifically, I will discuss the role of the 
importance of technical education in the development of career 
pathways in nontraditional fields for underrepresented groups.
    For more than 25 years I have served as an educator, 
advocate, and social science researcher. I currently serve as 
the director of Diversity in Life Sciences for Keystone 
Symposia on Molecular and Cellular Biology in Silverthorne, 
Colorado. My responsibility is to manage programs to serve 
underrepresented, or what we call UR students, postdoctoral 
Fellows, and early career scientists, including our flagship 
Fellows programs for UR assistant professors and research 
scientists. Many of the UR researchers who participate in our 
meetings and professional development programs come from public 
and private universities in States represented by members of 
this committee, including but not limited to institutions such 
as Emory, Stanford, the University of Pennsylvania, the 
University of Virginia, the University of Wisconsin, Madison, 
and Michigan State University.
    I am also a member of the Board of Directors of the 
Augustus F. Hawkins Foundation, a public education and 
workforce foundation founded by and subsequently named after 
the former chairman of this distinguished committee.
    In the past, career and technical education, or CTE, was 
associated with vocational education as a training platform for 
low-income and immigrant populations who had little access to 
more highly paid jobs that require formal postsecondary 
education. And in the past, CTE teachers were fairly low-salary 
workers. But according to 2012 Bureau of Labor Statistics, the 
median salary for CTE teachers was $51,910, placing those 
teachers squarely into the American middle class.
    A 2014 U.S. Census report cited statistics that non-
Hispanic Asians were most likely to hold a bachelor's degree or 
higher, followed by non-Hispanic whites. While 31 percent of 
Asians hold a bachelor's degree as their highest level of 
attainment and 18 percent hold an advanced degree, 20 percent 
of non-Hispanic whites hold a bachelor's degree and 12 percent 
an advanced degree.
    However, Blacks and Hispanics of any race were most 
concentrated at lower levels of educational attainment. Only 39 
percent of Blacks and Hispanics reported high school completion 
as their highest level of traditional educational attainment, 
and 13 percent of blacks and 28 percent of Hispanics or Latinos 
did not complete high school at all.
    When you total this, nearly 41 percent of minorities, 
African Americans and Latinos, don't complete high school. 
These are shocking numbers for any Nation, but for the most 
industrialized Nation in the world, an inability to ensure 
secondary educational completion signals a critical failure in 
the system. If students are unable to master basic skill sets--
that's reading, writing, computation, and critical thinking--it 
is far more difficult for them to secure and sustain gainful 
employment.
    However, one of the advantages of CTE is its emphasis on 
technical training and soft skills development, such as 
interviewing techniques, job persistence, and interpersonal 
communication. Short-term education is a possible way to lift 
groups, including Latinos and African Americans with low levels 
of educational attainment, into better economic standing. 
Recent economic challenges have pushed many Americans towards 
short-term education options and this short-term education may 
pay off. CTE programs and the credentials that they offer 
provide access to higher wages, higher-demand jobs, 
particularly in emerging industry sectors. Almost 30 percent of 
people with less than an associate's degree, including licenses 
and certificates, earn more than many of the average bachelor 
degree recipients.
    It is a fact that many Americans do not attend college. 
However, as a birthright, every American expects to have a job 
that allows them to feed their families, have access to 
affordable health care, and live with dignity. Fortunately, 
although CTE was once stigmatized and relegated to the dungeons 
of education, it is now considered as a viable opportunity for 
both nontraditional and college-bound students. In fact, just 
this year, the United States Presidential Scholars Program 
established a new category of outstanding scholars in CTE.
    The resurgence of apprenticeship programs is a welcome 
addition to the CTE portfolio, and I am pleased that 
legislation such as the Apprenticeship and Jobs Training Act of 
2015 are gaining currency. I thank the members of the committee 
for the opportunity to share a realistic perspective of how CTE 
can serve as a transformative toolkit for the education and 
workforce development of U.S. current and future labor markets. 
I look forward to your questions.
    [The testimony of Ms. Ricks follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Chairman Rokita. Thank you, Doctor.
    Mr. Johnson, you are recognized for 5 minutes.

TESTIMONY OF MR. TIM JOHNSON, DIRECTOR OF GOVERNMENT RELATIONS, 
NATIONAL CENTER FOR CONSTRUCTION EDUCATION AND RESEARCH, BATON 
                        ROUGE, LOUISIANA

    Mr. Johnson. Good morning, Mr. Chairman, Ranking Member 
Fudge, members of the subcommittee. My name is Tim Johnson, and 
I serve as senior director of governmental relations for the 
NCCER. Thank you for letting us participate in this hearing 
this morning.
    NCCER is a not-for-profit 501(c)(3) educational foundation 
created in 1996 as the National Center for Construction 
Education and Research. It was developed with the support of 
more than 125 construction CEOs and various associations, 
including the Associated Builders & Contractors and the 
Associated General Contractors, and academic leaders, who 
united to revolutionize training for the construction industry.
    Sharing the common goal of developing a safe and productive 
workforce, these companies and their organizations created a 
standardized training and credentialing program for the 
commercial and industrial construction industries. This 
progressive program has evolved into curriculum in more than 70 
craft areas and a complete series of more than 70 assessments 
offered by 700 NCCER accredited sponsors in more than 5,000 
training locations across the United States. The NCCER programs 
and processes annually engage more than a half a million--
500,000--individuals.
    Our Board of Trustees is a who's who of industry: 
ExxonMobile, Shell, DuPont, Bechtel, Fluor, Jacobs, Turner 
Industries, Performance Contractors, ISC Constructors. We also 
have board members from organizations--great organizations--
like Skills USA and the Association for Career and Technical 
Education.
    NCCER develops standardized construction and maintenance 
curricula and assessments with portable credentials. These 
credentials are tracked through our registry and allow 
organizations and companies to confirm the qualifications of 
their craft professionals and/or check the qualifications of 
possible new hires. NCCER's registry also assists craft 
professionals by maintaining their records in a secure 
database.
    Our workforce development process of accreditation, 
instructor certification, standardized curriculum, registry, 
and assessment certification is a key component in the 
construction industry's workforce development efforts. NCCER 
also drives multiple initiatives to enhance career development 
and recruitment efforts for the industry, primarily through our 
Build Your Future campaign.
    NCCER is headquartered in Alachua, Florida, and is 
affiliated with the University of Florida's M.E. Rinker School 
of Construction Management. And I will tell you, as a proud LSU 
Tiger, that's sometimes difficult for me to say.
    The NCCER is a believer in and supporter of career and 
technical education. We believe that CTE is being transformed 
across the United States and great pockets of excellence have 
been created. Our challenge is to take these pockets of 
excellence and turn them into standard practices based on 
regional and specific needs.
    We must place additional focus on what I call the Four P's 
of CTE: Public policy and public perception. The focus of my 
remarks today will be the critically important link between 
industry-specific needs and the education and training that CTE 
programs provide.
    All of the NCCER programs and processes are driven directly 
by our industry partners. Our 70-plus craft curriculum titles 
are developed and regularly updated by construction industry 
subject matter experts. For example, our process identifies and 
brings together some of the premier electricians in the United 
States to originally develop and constantly update our 
electrical programs. We must ensure that what is being taught 
includes the very latest technology and practices in all of our 
programs. The NCCER does just that.
    We are working in other ways to more closely link industry 
and education. We have developed the Construction Career 
Pathways initiative to provide guidance, best practices, and 
practical tools that can be used by industry and education to 
connect. This initiative has created an online connection map 
that allows industry representatives and educators to connect 
locally. By providing a fillable form to list contact 
information and needs, local teachers can find contractors in 
their area that are willing to help with their programs through 
presentations, curriculum guidance, and/or career events.
    We also know that successful CTE programs must identify and 
employ skilled and capable instructors. I had the great 
pleasure of managing a large, privately funded craft training 
program for a number of years and I learned very quickly that 
instructors are the lifeblood of any training program. I say 
often that it is easier to turn a pipe fitter into a teacher 
than it is to turn a teacher into a pipe fitter. That means no 
disrespect for professional educators. I come from a family of 
them.
    The key to CTE is to find skilled professionals who have 
some communication skills and provide them with the 
instructional training and resources they need. The NCCER does 
this through our Instructor Certification Training Program and 
our Master Training Program, and these programs ensure that 
individuals who instruct in our accredited programs have the 
craft and teaching skills to bring learning to life for their 
students.
    In my home State of Louisiana, where more than $80 billion 
of industrial development expansion has been announced, the 
NCCER is helping to drive great collaboration between industry, 
the contractors who build and maintain their facilities, 
educational providers, State government agencies. The Louisiana 
Department of Education, K through 12, and the Louisiana 
Community and Technical College System are both accredited by 
the NCCER to provide our programs and processes.
    The NCCER has developed into one of the premier workforce 
development organizations in the United States, and that 
success can be directly linked to the fact that we are and have 
been from our inception specifically driven by industry needs.
    We look forward to your questions.
    [The testimony of Mr. Johnson follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
 
    
    Chairman Rokita. Thank you, Mr. Johnson. I appreciate that.
    Let me start the subcommittee's questioning session by 
recognizing the chairman of the full Committee of Education and 
the Workforce, the gentleman from Minnesota, Mr. John Kline.
    Mr. Kline. Thank you, Mr. Chairman, for the courtesy and 
for the hearing.
    I thank the panel of witnesses. You're a terrific, terrific 
panel of witnesses.
    We have been grappling with how do we organize Federal 
efforts and how do we spend Federal money to good end, and what 
we've heard for a long time was that industry just couldn't 
find people with the skills that they needed, they just 
couldn't find them, and schools were providing skills that 
weren't needed. And so we went through quite a process here of 
looking at WIA, the Workforce Act, and we came up with WIOA. I 
don't know how we actually came up with that name, but we've 
got a new system.
    So, again, all of this was designed, if we're going to put 
taxpayer money into this, and if we're going to do something to 
help people who need jobs and to help industries who need 
workers, it ought to work, it ought to come together and not be 
working across purposes.
    So, Dr. Huftalin, you talked about partnering with local 
employers, and I think we're seeing evidence of that around the 
country. What kind of relationship do you have with these 
workforce development boards? Do you have partners there? Are 
you part of it? How is that working under the new rules?
    Ms. Huftalin. Let me share, one of our examples is the Utah 
Aerospace Pathways Program which I talked about. And I think 
part of the beauty of that program is that we literally have 
those industry partners at the table with us, not only for 
curriculum, but we're in the process of planning and building a 
brand new career and technical education building. That 
building is located in the industry area, so we're literally 
right across the street from Boeing and several other aerospace 
partners, with the idea that these industry leaders can not 
only help us with curriculum and state-of-the-art training and 
equipment needs, but can also provide internship opportunities 
for our students and job-shadowing partnerships, so that it's a 
very applicable training that they receive right there in that 
kind of industry corridor.
    So there's more than just curriculum that industry can be 
involved in. They can be involved in industry, partnerships, 
and on-the-job training. They've also been very, very helpful 
with us in the legislative session in trying to help our 
economic development. Our Governor understands the importance 
of this training opportunity for the Utah citizens.
    Mr. Kline. That's a good report. I like to hear that. But 
what about the workforce development boards? You go to a one-
stop, Salt Lake probably has one, are you connected with that? 
Somebody goes in there, they are out of a job, they are looking 
for help, how do they get connected to you, Salt Lake Community 
College?
    Ms. Huftalin. So we work with our division of workforce 
services quite carefully. Is that the work board that you're 
referring to?
    Mr. Kline. Yes.
    Ms. Huftalin. We work with them quite carefully in terms of 
grants that they offer us to develop particular skill-based 
programs that they are seeing industry needing, and they've got 
underemployed or unemployed workers that need those jobs. They 
work with us to provide funding to ramp up specific state-of-
the-art curriculum that those students can then benefit from 
and get into the workforce.
    So there's a strong connection between what our local 
industry leaders are saying they need help with, what our 
division of workforce services is funding, and the training 
that we provide at Salt Lake Community College.
    Mr. Kline. Great. Thank you.
    Dr. Major, basically the same question. What kind of 
partnerships does Meridian Tech have with the local workforce 
development agencies?
    Mr. Major. We have a very close working relationship with 
the workforce development board in our area and have a 
representative of our school that serves on the board. As a 
result, we're able to provide information to them about the 
opportunities for students at Meridian Technology Center, and 
we have several students who are funded through the workforce 
funds to attend school on our campus.
    Mr. Kline. Okay. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Rokita. I thank the gentleman.
    Ranking Member Scott, you're recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    And I want to thank our witnesses.
    I want to follow up with one of the questions the chairman 
mentioned. Ms. Huftalin, in working with the various agencies, 
how do you make sure that you're training the right number of 
people, not too many and not too few?
    Ms. Huftalin. Part of what we've looked at with several 
different industry sectors is job projections, and within those 
job projections, jobs that are going to help our students get a 
livable wage or above a livable wage. So that we really target 
particular clusters, what is the job necessary, and how many of 
those are likely to be developing in the next projected, let's 
say, 2 to 3 years.
    So for instance, in our new career and technical education 
building that we are creating, we've looked at about, maybe at 
the 28 programs that we're going to offer there, which are the 
ones that show a growing need, which are the ones that our 
industry, local industry leaders are saying they cannot fill. 
And we work with them to try to increase wages when necessary 
to make them a popular and livable wage, but we also then work 
with our faculty to develop the curriculum to allow the 
students to take up opportunities of that training.
    Mr. Scott. Thank you.
    Dr. Ricks, career training used to be known as vocational 
education, which traditionally was a dumping ground for people 
that weren't going to make it academically. Can you say a word 
about how important it is that the career training include the 
basics, so if a person wants to get into career training and 
decides, ``Well, maybe I want to go to a 4-year liberal arts 
college after all,'' that they are not left behind?
    Ms. Ricks. It's actually quite critical that the basic 
skills are adopted in the CTE programs, because one of the 
things that employers are finding, and it doesn't matter what 
industry, including the biomedical sciences, is that students 
are coming into the workforce very poorly prepared to write, to 
think critically, to be creative in the ways that they approach 
a problem.
    So CTE curricula typically offer those kinds of 
opportunities for their participants. So they build in on-the-
job training, so they give them scenarios, they set up case 
studies for them to learn how to learn on the job. And I think 
that that is critical. I think it's critical for everyone.
    Even in the industry that I've been working in for the last 
20 years, with biomedical science researchers, those skills are 
still very important for them. Whether they're going to NIH, 
whether they're going to the National Science Foundation for 
research grants or to conduct research, those are critical 
stills, and CTE provides those skill sets.
    And I think we have typically sort of divided students 
based on who's going to college, who's not going to college, 
what kinds of skill sets are needed. And that's really an 
artificial construction, because everyone needs the same skill 
sets. Everyone needs to know how to think, how to read, and how 
to write well.
    Mr. Scott. And so if someone gets in a career track, it's 
never too late to switch back to an academic track and go to 
college.
    Mr. Johnson, did you want to comment?
    Mr. Johnson. I did. Thank you, Mr. Scott. Because I think 
that's part of this public perception that we have to deal with 
in CTE. We used to think that, you know, if you're bright you 
go to the 4-year university, if you're not you go into some 
other track. I will tell you that a good layout pipe fitter 
will do as many mathematic calculations in his or her workdays 
as an engineer will do, and they are no less critically 
important.
    And so we've got to change that perception, and the CTE 
programs that provide those basic skills have to do it.
    Two things. One is that we use terminology often as well. 
We refer to CTE track programs as middle-skill jobs. I can tell 
you that a highly trained combination welder does not have 
middle skills. That individual has very high-level skills. And 
so just the words that we use sometimes we need to think about 
in terms of the perception of career and technical education.
    Mr. Scott. Thank you.
    Dr. Major, you alluded to the 2-plus-2 program. Can you say 
a word about that? I think you have commented on the others. I 
don't have much time left, so you can take the rest commenting 
on those two.
    Mr. Major. Okay. I think too often students who enroll in 
career and technical education are viewed as not going to 
college. What we find is that many of our students through 
career and technical education decide that college is the best 
path for them.
    And so we try to make sure that our students before they 
leave us are ready for that, and so we not only expect them to 
learn the technical skills, but we also focus on numeracy, 
literacy, and critical thinking.
    Most students who enter into a community college in 
Oklahoma are 27 years old, which means that they didn't go 
there directly from high school, but at some point they made 
the decision to go back. Career and technical education needs 
to prepare those students for when they are ready to go into a 
college pathway.
    Chairman Rokita. Thank you. The gentleman's time has 
expired.
    The gentleman from Pennsylvania is recognized for 5 
minutes.
    Mr. Thompson. Chairman, thank you. Thank you for this 
hearing. Career and technical education is obviously something 
I'm very passionate about, and I happen to believe that of the 
domestic issues that this Nation is facing economically, a 
robust investment in career and technical education training is 
a solution to many of those problems.
    Thanks to the members of the panel for your experience, 
your passion, and your leadership. On behalf of the Career and 
Technical Education Caucus, which I co-chair with my good 
friend, Jim Langevin, who submitted something for the record 
already, despite some difficult economic times around here, 
we've actually--and I think it is an acknowledgement of the 
importance of career and technical education--we've actually 
gotten a plus-up. You know, not much, $52 million, it's kind of 
minimal in the scale of a $1.3 billion program, but any kind of 
a plus-up is a sign of recognition of importance, I think.
    Dr. Major, we all know it's important to ensure that 
parents and students are receiving the necessary information 
about the vast opportunities that career and technical 
education can provide. In your testimony, your written and your 
verbal testimony, you talked about more flexibility, the use of 
Perkins money earlier in education to pursue career 
exploration. Can you put a little more meat on the bone of 
that, just a couple of examples of what and when do you think 
would be effective?
    Mr. Major. I would like to see more flexibility for us to 
use Perkins funds in the middle school grades with younger 
children to help expose them to career options so that they can 
determine the best educational pathway to get to their chosen 
profession, recognizing at that time in their life it's 
probably going to be more an affinity toward an industry sector 
rather than a specific career.
    Too often children in the middle school aren't able to see 
how that formal education will affect their future. And so if 
we have the flexibility to provide more career exploration, 
more career guidance in those middle school levels, I think in 
the long run it will help with our high school success and high 
school graduation rates.
    Mr. Thompson. I couldn't agree more. Long before I came to 
Congress, I worked on workforce development issues, and it 
amazed me that that time period of middle school was where we 
really need to zero in on, as kids are exposed to so much more 
today.
    Dr. Ricks, you had noted that, and I'm going to quote you 
from your testimony, ``Fortunately, although career and 
technical education was once stigmatized and relegated to the 
dungeon of education, it is now considered as a viable 
opportunity for both traditional and college-bound students.'' 
I certainly agree with you on that, I'm excited about that, but 
I don't think we've gotten everybody yet.
    So within your research, have you really looked at that--
because I feel that there's still a stigma out there among 
parents, and parents are the leading--I mean, they're steering 
the decision making, they're exposing the kids to 
opportunities. Has your research found anything there and 
anything that would be helpful for turning that stigma around?
    Ms. Ricks. Well, one of the things that I've discovered is 
that guidance counselors need to be approached. And I think 
that we need to look at it in a collaborative way with parents 
and guidance counselors working together to talk about CTE and 
the benefits of CTE and looking at the professional association 
of guidance counselors. I attended a meeting, I think it was 
last year, here in Washington, and they were talking about the 
role of guidance counselors and steering students away from CTE 
and how they need to be brought into the fold. Because 
surprisingly, many guidance counselors aren't that aware of 
CTE. They still call it vocational education. They still see it 
as a two-tiered system. And so they tell their college-bound 
students not to go into CTE coursework.
    So I think that there can be more effort made in the 
school.
    Mr. Thompson. With the guidance counselors?
    Ms. Ricks. Absolutely.
    Mr. Thompson. Now, we have language within the Student 
Success Act that, hopefully, will be going to conference soon 
with ESEA that really looks at parental engagement centers. Is 
there anything the panel, any of the panelists have anything in 
terms of thoughts in terms of how do we get to the parents and 
help change that stigma, that these are great paying jobs, they 
are low debt coming out? I mean, the facts are all on our side, 
I think, we just need to communicate.
    Dr. Huftalin, you have 30 seconds.
    Ms. Huftalin. Congressman, If I can just share, two things 
I would say. One of the things is marketing around the wages. I 
think parents are very, very unaware of the wage data 
associated with many of our career and technical education 
fields and the kind of career their son or daughter can have in 
that career. So wage data I think is critical.
    The other thing I would share is I had no idea what 
happened behind the doors of the Boeing plant. And we went on a 
tour of that Boeing plant and watched them make that horizontal 
fin. And I am telling you, if we had sixth and seventh graders 
and their parents walking that floor, that would shift 
dramatically, because it is impressive, it is high engineering, 
it's high technology, and it's very, very exciting.
    Chairman Rokita. The gentleman's time has expired.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chairman Rokita. I thank the gentleman.
    Ranking Member Fudge, you're recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And, again, thank you for your testimony.
    Dr. Ricks, you stated that 41 percent of minorities do not 
complete high school, which in my opinion highlights the 
disproportionately negative effect education policies have had 
on Black and Hispanic students.
    The racial divide is compounded when funding streams for 
hands-on, short-term education and career training are cut. We 
do know that funding for Perkins has declined by 24 percent 
since 1998, and in particular because of sequestration over the 
last few years.
    Can you tell me how these cuts have affected 
underrepresented students in CTE programs?
    Ms. Ricks. The underrepresented students, because of some 
of these challenges with the budgets and with the lack of 
parental involvement and guidance from the guidance counselors, 
has resulted in fewer students of color participating in CTE, 
and that's a problem. And I think that we need to rebrand CTE. 
We have tried to change the name CTE rather than voc ed.
    So I think that we need to consider creative ways. And I go 
back to what I said earlier about the role of CTE in 
stimulating creativity and critical thinking in our students. 
We need to do the same here in Washington and in all the other 
policy institutes that look at education in a very serious way.
    And I think what has happened with underrepresented 
students is that they become even more discouraged. And one of 
the things that we study as social science researchers in 
education is looking at the emphasis on role modeling. The less 
likely you are to see yourself in a particular role, the less 
likely you are to participate in that role. And so that's 
what's happened.
    Ms. Fudge. Thank you very much.
    Mr. Johnson, can you tell me about the availability of CTE 
instructors and what we can do to help support craft 
professionals to become CTE teachers?
    Mr. Johnson. Well, I think there are probably a number of 
things, Ms. Fudge. I will tell you that if you look in the 
industrial sector, particularly along the Gulf Coast, one of 
the major struggles that we have is that there is so much 
expansion going on and there is such availability for high-wage 
jobs that many instructors who may have retired and gone into 
CTE have decided to go back on their tools because they can 
simply make more money.
    And so a part of it is helping to identify those existing 
craft professionals, those retired craft professionals who 
might be willing to be instructors. But certainly being able to 
pay them at a rate that makes it attractive to them is a 
critical part of that effort. We have programs in place to 
begin to help us identify those individuals who might be 
interested in becoming instructors now, but certainly the pay 
rate is one of the issues that we face.
    Ms. Fudge. Thank you very much.
    Dr. Major, can you provide us some insight as to how CTE 
programs can more effectively reach secondary school students 
and engage them in a career path?
    Mr. Major. I think one of the issues we face goes back to 
the guidance and the perception of who CTE is for. And it is 
true that at one point in time CTE was seen as the educational 
system in which students who weren't going to college could be 
successful. And that is true, but more and more students are 
leaving our school and going into a college pathway.
    Like the terminology of middle skills, I think we need to 
reshape postsecondary education and be more cognizant of their 
many forms of postsecondary education, one of which is a 
colleague degree pathway. But through apprenticeship, through 
licensed trades, through on-the-job training, postsecondary 
education is a successful route to entry and a shorter route to 
entry for many lucrative careers other than college.
    Ms. Fudge. I certainly hope you all are successful, because 
the young people I know don't know how to do anything with 
their hands. So I'm hopeful that we'll still have electricians 
and plumbers and brick masons and all those people.
    And with the last about 40 seconds that I have, Dr. 
Huftalin, you have seemingly been very successful at trying to 
predict the future and know what job skills are going to be 
needed. How do you do that?
    Ms. Huftalin. I'm not sure I can take that credit one bit. 
I do know that we're trying diligently in Utah to get better 
relationships with our job forecasters, with the folks that 
look at the kind of tomography of the State, and to use that in 
a much more essential way.
    I don't think we've mastered that yet, honestly, but I do 
think we're being very clear about looking at projected jobs 
that are going to be available and then making adjustments to 
meet that demand. That is just data that we've had for a long 
time, but we haven't shared it regularly. I think our 
relationship building and our collaboration is stronger than 
ever, and that needs to continue to improve.
    Ms. Fudge. Thank you. I yield back.
    Chairman Rokita. I thank the gentlewoman.
    The gentleman from Georgia is recognized for 5 minutes, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank all of you for being here. This is very 
informative, and I appreciate it very much.
    Dr. Huftalin, there's a technical college in my district, 
Coastal Pines Technical College. It operates a program that's 
called Move on When Ready. It allows students, high school 
students, to actually take classes at the technical college to 
get credit for the classes for a college degree as well as for 
their high school degree. It comes at no cost, not even the 
books are charged for. And it's very well attended, very well 
participated in. Is this the type of program that you see 
implemented anywhere else?
    Ms. Huftalin. We have a very similar program in the State 
of Utah called Concurrent Enrollment. And so students can in 
their high school journey take both general education and/or 
CTE classes as a high school student and earn high school 
credit and college credit simultaneously. And that's very well 
adopted across the State of Utah.
    We look at curriculum carefully. And I think we've been 
much more willing to kind of look at the pathways, and where 
there are no pathways pull back on certain courses, and where 
there could be stronger pathways be very intentional about 
putting additional courses in the high school to allow students 
to articulate into an associate's degree when they come to the 
college.
    Mr. Carter. Great.
    Let me ask you something. The way that these funds are 
being appropriated right now is through a formula system. If we 
were to go to some type of competitive grant system, do you see 
that working? Do you think there would be problems with it?
    Dr. Major, I see you.
    Mr. Major. I think if you move away from a formula process 
to a grant, you're going to remove the opportunity for many 
students in the United States to have access to career and 
technical education. The Perkins Act originally was that act 
that allowed access by all students to career and technical 
education. If you go to a competitive grant, you're going to 
have some that have access and some that don't have access.
    Mr. Carter. Anyone on the panel disagree with that?
    Do you think that a combination of both might work? I mean, 
obviously, if we have a program like this Move on When Ready 
that we're very proud of in the State of Georgia and that has 
proven to be very beneficial we would want extra funding for 
something like that.
    Mr. Major. And I think history will tell us that we've the 
basic grant, but then we've also had some additional moneys for 
innovative programs. And I think that those innovative funds 
have started some really great movements in the United States 
around career and technical education. So I think if we do 
something competitive, it needs to be in addition to the basic 
grants.
    Mr. Carter. Okay.
    Mr. Johnson, you mentioned wage disparity in the words that 
we use. I'm always reminded, when I was in the Georgia State 
Senate I chaired higher education, and one of the things that 
we always stressed, technical colleges. And we changed it to 
technical colleges.
    Is that the case with all of you? Is it now a college or is 
it still technical school.
    Mr. Johnson. I think that's becoming more universal, the 
technical college. But we think about that as well. We talk 
about at the technical college there are four credit courses 
and, quote, ``noncredit courses,'' right? And so if I'm in an 
entry-based certification and I'm going through the process and 
you tell me that my course is not for credit, what kind of 
imagine does that display?
    So those are the kind of terms, the kind of words that I 
think we need to think very carefully about and look to change 
how we characterize career and technical education. Changing 
from, you know, vo-tech to technical college is a very critical 
thing that we do, but we must continue that process so that we 
look at it differently.
    Mr. Carter. You know, again, one of my favorite stories 
about the wage disparity is about the doctor who calls the 
plumber in on the weekend for an emergency. And you've heard 
this.
    Mr. Johnson. Yeah.
    Mr. Carter. Anyway, the plumber's working on the plumbing. 
The doctor looks down and says, ``How much are you making per 
hour for this emergency call?'' He says, ``I'm making $150 per 
hour.'' And the doctor says, ``Wow. I'm a doctor and I don't 
make that much.'' And the plumber looks up and says, ``Yeah, I 
know, I didn't make that much when I was a doctor either.''
    Mr. Johnson. Exactly right.
    Mr. Carter. But it is true. The last thing is, are you 
working with the businesses? One of the things that we have a 
problem with in Georgia that we're really concentrating on is 
identifying those jobs that are going to be needed and trying 
to fill that void, if you will, in making sure those personnel 
are available. For instance, we have two nuclear plants that 
are being built right now, and we're having welders. And we 
want to make sure those welders are available, that we're not 
having to go out of State to get them, that we can provide them 
there in State.
    Mr. Johnson. We work very closely with industry through the 
NCCER and most of our programs also do. It's critical to make 
that connection. If we think about projecting jobs that will be 
available, as you are doing in your State, we've got to get 
those employers engaged at a high level.
    I will tell you that I've been in the workforce development 
game for over 20 years now, and I think we've done more to 
change perception and more to connect employers with education 
over the last 3 or 4 years than we did in the previous 15 or 16 
that I was involved in it.
    So I think we're headed in the right direction. There's 
more work to do, but any time we can link an employer directly 
to a--
    Chairman Rokita. The gentleman's time has expired. I thank 
the gentleman for his time.
    Ms. Bonamici, you're recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you to the witness. This is such an important 
conversation. As, we know that the CTE courses can help prepare 
students to succeed in careers, but also on college campuses, 
as we've discussed, and help them be prepared.
    But that isn't all. The students also learn the soft skills 
as well as the hard skills, and I know Dr. Ricks mentioned 
this, like teamwork and the ability to communicate. And that 
serves them throughout their lives, regardless of where they 
end up in a career.
    The good-quality CTE classes accomplish this while also 
preparing students to do well academically in postsecondary 
education as well as the workforce. And I really want to 
emphasize, because we've been talking a lot about how we 
message this and what's happened in our conversations, the 
``E'' part of CTE stands for education. So we're not trying to 
convert education into job training. This is about educating 
students to be prepared for whichever path that they take.
    And I want to mention, we're talking about success stories, 
I have several from the district I represent. Sherwood High 
School in Sherwood, Oregon, they have an all-girls welding 
class, fills up every year. They also have a program where the 
students build a house. They take architecture classes, 
interior design, environmental science and construction, and 
then they build and sell the house. It's a great experience. 
And they have a mobile fab lab where the teacher has an RV and 
he drives around, not just to other schools, but to other 
districts to help inform their teachers about what they can do.
    But the tremendous benefit, and I've seen and talked with 
the students who participate in these classes, that they get 
inherent benefit from making something tangible. And those 
lessons are really important. Newberg High School in my 
district has a whole range, from culinary classes to CAD labs. 
And when I was out there, they really emphasized the importance 
of the Perkins funding. Yamhill Carlton High School, which is 
down in wine country, not only do they have a manufacturing 
class with a local polymer manufacturer, they have also started 
a viticulture class at their high school.
    And then there are courses that continue at the community 
college. Portland Community College has one of the Nation's top 
job training programs as recognized by the White House, where 
they use an innovative approach to help unemployed workers 
complete short-term stackable credits that give them skills.
    So those are just a few of the examples.
    And Dr. Ricks, I mentioned the all-girls welding class at 
Sherwood High School and their homebuilding class. Now, that 
district has about 5,000 students. This beautiful pen you might 
have noticed because we're in a small room today, that wood pen 
was made by a student at Gaston. They have 564 students total 
in their entire school district. When their teacher gave me 
this pen, he talked about what this means to the students to 
actually make things and how engaged they are. Warrenton High 
School, over on the Oregon coast, has only 285 students, but 
they run a fish hatchery at their school and have an 
aquaculture program.
    So, Dr. Ricks, how do you bring high quality academic 
programs, especially to rural and underrepresented communities? 
And I share your concern about--and Dr. Major and all of you on 
the panel--about what a shift to competitive funding would 
mean. But how do you really bring those programs around the 
country to rural and underrepresented students as well as in 
large urban districts?
    Ms. Ricks. Well, it's not easy. One of the things that I've 
done in the past, I've worked in different organizations that 
have tried to especially reach out to rural and 
underrepresented communities. When I was at NOAA, I was on a 
contract with the Office of Education, and they have a mandate 
to try to do that. When you talked about the aquaculture and 
fisheries, I thought about NOAA and how they've been doing that 
for some time with K through 12 students.
    And there's a number of activities that the different 
Federal agencies have been engaged in looking at how to build 
interest, especially because I come from, you know, the STEM 
background, looking at how science, technology, engineering, 
and math can be integrated to grow interest in--
    Ms. Bonamici. Thank you. I'm sorry to interrupt. I want to 
get another quick question in.
    Ms. Ricks. Oh, okay.
    Ms. Bonamici. I want to talk about STEAM, integrating art 
and design into STEM.
    Dr. Major, you really talked about the students who 
consider college as a viable pathway once they get into a CTE 
course or program. Can you discuss what an effective CTE 
program can do to make sure that students do receive a well-
rounded education that includes language, art, science, math, 
other subjects?
    Mr. Major. I think we made to make sure that our CTE 
programs incorporate the use of high-level academics. Through 
project-based learning students have to do research. The house 
that they build, they have to do research, they have to be able 
to read technical documents. So we need to encourage their 
success in those academic studies in addition to the career and 
technical education studies. And that comes as a part of the 
definition of a high-quality CTE program. And we talk about 
accessibility, but we also need to hold programs accountable, 
and accountable for offering high-quality programs to the 
students.
    Ms. Bonamici. Thank you. I see my time has expired. Thank 
you, Mr. Chairman.
    Chairman Rokita. I thank the gentlelady.
    The gentleman from Wisconsin is recognized for 5 minutes.
    Mr. Grothman. Okay. First of all, I'd like to make a 
comment. I can tell you, I'm 60 years old, I think in my 
lifetime I have never felt that people look down on, or I think 
Congressman Scott used the word as tech schools as being a 
dumping ground. There may be some segments of society where 
they are bigoted or, you know, snobbish people look down on 
people who didn't go to a 4-year degree. I think among me and 
my peer group, when I was coming up we never had that idea. And 
I think it is unfortunate that we had people here today use 
those terms.
    But a question for I guess any one of the four of you. One 
thing that I find in my area is that sometimes when I talk to 
people who run the local tech schools they talk about people 
with literally a college degree going back. I know Dr. Major 
talked about people being an average age 27. I'd like to you to 
comment as how often you do see people who have a full 4-year 
degree and eventually realize that they got something without a 
great deal of value and come back.
    Mr. Major. I'd like to respond to that. We're seeing more 
and more students coming back in our postsecondary programs who 
do possess a degree. And what we're finding is that the rate of 
change in industry is so significant now that the jobs that 
they prepared for when they were in high school don't exist. 
And no matter what we do, we need to continue to learn. And 
there are specialized skill sets that we're able to offer 
through our work with business and industry that allow adult 
students to come back regardless of whether they have a degree.
    We recently worked to help recruit an aerospace 
manufacturer to our district. When they arrived in our 
community they needed employees with a diverse set of skills 
and we weren't able to identify those. But working with that 
company, we put specific educational programs in, focused on 
their job descriptions, so that students could come back and 
gain the knowledge and skills they need to be successful for 
that particular company.
    Ms. Huftalin. Congressman, I'll just share that we are also 
seeing a trend in students that have a bachelor's degree or 
beyond and then are retraining later in life and coming back 
and finding a new field that they never even knew existed. I 
can tell you that our dean of the School of Technical 
Specialties is with us this morning. His son is a great example 
of that. Bachelor's degree in history, returned to our Non-
Destructive Testing program 2 years ago, and is now very well 
employed in the non-destructive testing field, a field he 
didn't even know about as an undergraduate when he attended the 
University of Utah.
    Mr. Johnson. I would just say quickly too, Louisiana 
Community and Technical College System is seeing that in a big 
way. Process technicians are in huge demand for industry in 
Louisiana. That's a 2-year associate degree generally. They 
created a program within the Community and Technical College 
System that says that if you have a bachelor's degree you can 
now come back and get that associate degree in 16 weeks because 
of the other academic accomplishments that you have. So 
innovative programs like that that allow those bachelor degree 
individuals to come back and get their training quickly.
    Mr. Grothman. Okay. One more question. One thing that 
people always are concerned about, or at least I feel 
contributes to the high cost of education today, is the number 
of nonteaching personnel hired by all institutions of higher 
learning.
    One of the things I wondered about, I notice--well, Dr. 
Ricks, a couple comments on your testimony. First of all, you 
say we can no longer afford to educate only an elite class of 
citizens. That's kind of a damning statement about America and 
I don't think that's been true throughout my lifetime. Do you 
really believe in America--or when was the last time you really 
feel we only educated an elite class of citizens in this 
country?
    Ms. Ricks. Well, when you look at the numbers of the 
students who actually graduate from college, it's typically, in 
the Department of Education NSF report, it's typically students 
who can afford to go. And because income has been a barrier, it 
has become--and it hasn't always been--but it has definitely 
become a system that discourages students who cannot afford to 
go. They cannot afford to persist beyond their first year of 
undergraduate education. And I'm talking about students who did 
not come in with merit-based or need-based scholarships, just 
students who are just, you know, your average student trying to 
get into college and graduate. So those numbers are--
    Mr. Grothman. Let me cut you off. You're saying something I 
didn't expect. In other words, you're saying right now it's 
harder to get through college if you're kind of middle class as 
opposed to the people who qualify for the Pell Grants? Is that 
what you're telling us?
    Ms. Ricks. Not in--well, there's two different issues. You 
have the students who come in need-based, and then you have the 
students who don't anticipate the need that they will require 
to graduate. And so there's a slight difference there. So you 
can have students that have received financial aid that still 
there's a gap, there's a huge gap between what they receive and 
what they need in order to fully participate in the college 
experience. And I'm not even talking extracurricular. I'm 
talking about when--
    Chairman Rokita. The gentleman's time has expired.
    Thank the gentleman.
    Ms. Ricks. Sorry. I talk too much. Sorry.
    Chairman Rokita. Mr. Takano, you're recognized for 5 
minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    I want to talk about this idea of the people coming back at 
age 27. I just spoke to someone today who grew up in a 
household with a mother, a single-parent household. The mother 
was on food stamps. He worked as a box boy full time. Could 
have qualified for the Pell Grant, all these things early on, 
but worked his way up to management in this food supermarket 
area. Hard-working person, working full time, had a kid. 
Decided that he couldn't stay up all night dispatching the 
trucks in the morning, sleeping all day, and being a good dad. 
So he wanted to back and get his education. So he never used 
the Pell Grants, worked his way up. You know, did all the 
things. I mean, he was impelled.
    I'm wondering how many of those kind of folks do we have 
coming--you know, they don't even have their first bachelor's, 
but they're going to come back and try to earn their first 
degree. But for him to leave the workforce, really, we know 
that going to school full time is probably a good idea for many 
people in order to complete their programs.
    I mean, how big a segment of the society is this, and do we 
need to do something about it?
    Ms. Huftalin. Congressman, I will share with you that one 
of the difficulties we have at the community college is that 
many of our students work. Seventy-four percent of our students 
work while they're attending. And of those 74 percent, 40 
percent work full time. So they're working full time and 
they're trying to come to school. And very often they choose, 
because of the realities of that schedule, to go at a part-time 
load, take 9 credit hours.
    Mr. Takano. Well, here's the thing, though. I'm wondering 
how this person got this huge debt, right? I mean, he would 
have qualified in the front end if we had gotten him in a place 
to go to community college and then transfer or even just go 
from community college into the workforce. But he would have 
qualified for those all those grants, but he worked and worked 
and worked and then worked himself up to a level, then decided 
to go back to school, decided, oh, in order to do this I got to 
take all of these loans to be able to go to school full time.
    So the choice is that you work part time, maybe not be as 
effective in the school as a student. Or at that point in your 
life you don't qualify for anything because your income was too 
high, right? But his beginnings were, you know, very, very 
humble.
    So I'm wondering, I have to imagine there's a lot of people 
in our country that are examples of that. You know, worked 
really hard, his mother was on food stamps, needed to get a 
job, went through various levels of employment and got fairly 
well paid. But then in order to go and get an education, to get 
a different track, there's nothing for him. I mean, he's either 
got a choice of working full time and going to school in a job 
that he's up all night, he really can't go to--I mean, this is 
a very specific example.
    But I'm thinking there's a lot of people in that 27-year-
old, 28-year-old category that may have already gotten a 
degree, but many of them who haven't even gotten the first 
degree, but we don't have an affordable way for them to go back 
and get training or CTE education. What are your thoughts on 
that?
    Ms. Huftalin. I guess my response to that would be that 
that's part of the reason why as a community college we keep 
our tuition and fees as low as possible. I mean, literally as a 
returning adult, even though you may not qualify for Pell, you 
can attend--you can go for a year of college with us full time 
and only pay $6,000.
    Mr. Takano. Let me switch tracks a little bit. Let's talk 
about what it means to be college and career ready and how we 
can improve that transition into a training, you know, either a 
CTE program or a transfer program. I noticed that you have a 
lot of concurrent enrollment programs, you have early college.
    What could the Federal Government do to help make this--I 
just spoke to a superintendent who's reduced his remediation 
rate by 50 percent. What can we do to help you all do things 
like that, reduce your remediation rate, get the community 
colleges to communicate more with the high schools and work 
together?
    Ms. Huftalin. I think part of, for my response, it would be 
that continue to hold us responsible for having secondary 
partners very, very deliberately and very intentionally. We 
have to be able to work with our superintendents and our 
districts and the faculty there have to work with our faculty 
to identify what are the math competencies necessary to move 
without any kind of problem--
    Mr. Takano. So high school faculty knows, has a clear idea 
what they need to do to get the kids prepared--
    Ms. Huftalin. Exactly.
    Mr. Takano.--for both career and--
    Ms. Huftalin. And the writing faculty and the communication 
faculty.
    Mr. Johnson. SkillsUSA students graduate at a 95 percent 
rate. Those individuals who are involved in SkillsUSA programs, 
those CTE programs across the United States, their graduation 
rates are up at 95 percent. It's a proven winner.
    Chairman Rokita. The gentleman's time has expired. I thank 
the gentleman.
    The gentleman from Virginia is recognized for 5 minutes.
    Mr. Brat. Thank you, Chairman.
    Thank you all for what you do. I just met with all my 
career and technical folks a couple weeks back. I've been 
working in this Virginia State Senate with some of the leaders 
there for 7 or 8 years. I was a college professor for 20 years. 
Went to seminary before that. I don't know what went wrong. So 
I've been in education my whole life.
    Congresswoman Bonamici says, ``I know what you're going to 
ask every time,'' because I ask the same question every time 
one way or the other. But my challenge to you, you're all doing 
the Lord's work, et cetera, but there's a problem in K to 12, 
and people have been asking, the parents, and there's all this 
inside baseball up here, all these terms, and, you know, like 
we're going to fix this through policy. And so we're spending 
$13,000 a year per kid for 13 years and they don't know what 
business is when they get out. It's unbelievable.
    So you guys are saying let's find some skills for them. 
Well, I don't blame you, right? So if you're coming out and you 
don't know what a business is and you don't know about free 
markets and economics or any of that, then you're doing the 
next best step. Let's get these kids some skills and fit them 
into empty sectors where there's some jobs, right? So I get 
that.
    I'll just go through all for you real quick. Just how can 
we start to teach kids about free markets and get them excited 
about business? They're going to spend every waking hour of 
their life in business. And yet sometimes we tell them business 
is bad, right? So the rest of your life, all your waking hours, 
is going to be spent doing something morally bad, right? It's 
no wonder the kids look at you and go, ``I don't get it.''
    My Governor in Virginia is on the other side of the aisle. 
He's going around the world doing great stuff. He's getting 
jobs from China and India and all this kind of stuff. And yet 
we don't work together to convey that energy to the kids. This 
is the way it works up here in the big leagues, right? All the 
business people know what you have got to do to make money and 
be successful. But we don't give those secrets to the kids.
    And I'll just put on my econ hat, did economics for years. 
The industrial revolution skills, they've been with us forever. 
They didn't cause modern economic growth, I want to be clear on 
that. And you can go look at a bipartisan author, favorite of 
mine, Deirdre McCloskey. She's got a six-volume set out, she's 
a Nobel-caliber economist, and I'd recommend that to all of 
you, on why markets matter more than all these other subsets, 
right, education, skills. We have to do all of the above, but 
if you don't have working markets for kids to plug those skills 
in, if you go to a top-down communist society, you got skills, 
you're not going to get growth and kids won't end up rich.
    What can we do to pump up and motivate the K to 12 system 
so that the kids are more prepared for the skills when they get 
to you? And I'm not leaving you enough, but if you can just all 
weigh in as you see fit.
    Mr. Major. I'll start with that. And one of the 
opportunities we have in career and technical education is we 
hire teachers that have the technical content to come into the 
classroom and help them become teachers. When you look at your 
traditional academic teacher, and I had the greatest ninth 
grade English teacher in the world, but her whole professional 
experience was being a teacher. She liked school so she became 
a teacher. And so she had little knowledge as to what business 
and industry needed from students.
    So I think a way to address that is to provide professional 
development opportunities for teachers, provide externships for 
teachers that allow them to go out and interface with the 
business community so they can help make that connection 
between the academic content and the world beyond high school.
    Mr. Brat. Good. Anyone else?
    Ms. Huftalin. I will just share that one of the things that 
we built into the Utah Aerospace Pathways Partnership was that 
our professional development in the secondary schools, the 
teachers had to be part of that training. They had to go to 
Boeing, they had to go to Hexcel, they had to be part of that 
so that they could be on the floor in the environment 
understanding that particular industry much more clearly than 
if they would had just been in kind of the shelter of their own 
secondary school.
    Ms. Ricks. I was going to say some of the larger 
corporations have been doing that for some time, like IBM. 
Their employees give back and they get community service credit 
for going into the local schools and talking about business, 
talking about their industries.
    Mr. Johnson. I would recommend that you go the NCCER's 
career awareness site, BYF.org, that's Build Your Future. There 
are a ton of resources there that do exactly what you're 
talking about.
    Mr. Brat. Thank you all very much.
    Chairman Rokita. The gentleman yields back.
    Ms. Clark, you're recognized for 5 minutes.
    Ms. Clark. Thank you, Mr. Chairman.
    And thank you to all the panelists who are with us today 
for this really interesting and important discussion.
    I had a question maybe for you, Mr. Johnson. You were 
talking about students coming back who maybe had the BA and 
you're quickly allowing them to get that associate's degree. 
How do you find the balance between helping business fill that 
short-term talent pipeline and the longer best educational 
goals for our students, maybe sort of the reverse of what you 
were describing? How do we find that balance?
    Mr. Johnson. Well, I think part of it is having a clearer 
recognition about career paths and what's available. We've 
created a culture that says if you want to be successful you 
graduate from high school, you go directly into a 4-year 
university, you get a degree, and you go to work. And I think 
that there are so many more pathways.
    We talk about electricians all the time. What if a young 
man or young woman is thinking that maybe they would like to be 
an electrical engineer at some point? What better preparation 
could they possibly have than to get into a CTE program and 
become a practicing electrician for a few years, save their 
money, understand what it's like to work in the field, then go 
back in to pursue their degree? What advantage does that 
individual then have over the rest of the individuals in that 
program that have come right out of high school and gone into 
that career track?
    So I think a lot of it has to do with understanding clearly 
about career paths and flexibility within career paths. I don't 
think we talk about that enough. So we've all talked 
specifically about the need to ensure that basic education. 
When we talk about CTE, we're never asking for less rigor. We 
generally ask for more relevance, right? I mentioned before, 
that pipe fitter's got to know as much math as the engineer 
does.
    So I think that the answer to that is more clear 
understanding of the potential that's out there in each 
individual career path.
    Ms. Clark. Great. And to pick up on a discussion we were 
having with my colleague from California, how do you think the 
assessment tests and sort of this remedial course work--I hear 
from students in my district that it's a big barrier. Students, 
as you were talking about, are trying, especially in our 
community college system, to either balance work or get to that 
first job as quickly as possible while they continue their 
education.
    How can we do a better job of aligning with the K through 
12 system? And do you have any models that you think are really 
working?
    Ms. Huftalin. I think for us at Salt Lake Community College 
we've been looking at our kind of developmental education and 
the major need that students are coming to us with those, both 
in math and writing, and really trying to stem that. As I 
mentioned earlier, we're working diligently with our math and 
writing faculty at the high school level to try to get that 
curriculum much more aligned.
    But we're really looking at accelerated developmental ed, 
corequisites, concurrent learning, supplemental instruction. So 
rather than make them take isolated developmental courses that 
kind of pushes off their degree, they can take them in 
conjunction with the training that they're interested in.
    The other thing I would suggest is that we've been very 
intention about stackable credentials so that students can take 
a very short-term certificate, get out into the world of work, 
start making money for their family, and then as the time is 
available, come back to the college and add to that another 
credential, eventually leading to an associate's degree. As 
their career trajectory changes, maybe they want to go into 
management, they can build on that, and none of that has been 
wasted time, if you will, in terms of articulation.
    Ms. Clark. Great. Thank you.
    And, Dr. Ricks, you have had tremendous experience on 
bringing women and people of color into the STEM field. Can you 
talk a little bit about that experience in Washington, D.C., 
and what lessons you think that we can incorporated for the 
Perkins program?
    Ms. Ricks. One of the things that I think that underpins 
the barriers for women and underrepresented groups is this--and 
what they're now calling unconscious, biased, or stereotype 
threat, where they feel that they can't do the work, that they 
can't compete. And so I think if we give enough opportunities 
and we provide enough role modeling, I think that that goes 
very, very far. And organizations like the American Women in 
Science, AWIS, and other groups like that have gone very far in 
making sure that women and girls in particular are given these 
kinds of opportunities to see themselves in the roles that they 
envision.
    I think we tend to kind of minimize the importance of that, 
but it matters. Like when you look around this room, they've 
done studies on how even the Congress, they'll say, you know, 
to young girls and people of color, ``Do you see yourself 
becoming a Congressperson one day?'' And more frequently now 
the answer is yes, because they see themselves. And so that is 
critical in the sciences in particular.
    They still do--and I think it's kind of funny--they'll do 
these kinds of studies where they'll ask young children who are 
the scientists. And typically they will choose a white male in 
a lab coat. That's changing now. So now you see scientists of 
different colors, different backgrounds, different ages, 
because it was always someone over 50. Now it's someone under 
50. So I think that we could do a lot in doing that. -
    Chairman Rokita. The gentlelady's time has expired.
    The gentleman from Michigan is recognized for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chair.
    And thank you to those of you who are here today to 
testify. Very interesting.
    I'm from the great State of Michigan where we are known for 
our skilled workers. And over the years we've kind of moved 
away from that in Michigan and we're trying to do whatever we 
can to ramp up our vocational environments again.
    And I'm wondering, I was just noticing, Dr. Huftalin, the 
Utah Aerospace Pathways Program is a fascinating example of 
partnership between local educators and industries. And I'm 
wondering if you can share with us how that internship program 
enhances the students' experience.
    And also in that same regard, what advice can you give to 
other learning environments, vocational learning environments, 
to continue updating their processes and continuing to align 
with changing needs to ensure they are properly preparing their 
students for the jobs that are available today?
    I ask that question because as I work my way through my 
district, I note that there is an emphasis on vocational 
training, but I'm not sure that it's just there to say it's 
there rather than being dynamic and moving with the economy. We 
have 96,000 unfilled jobs in Michigan, manufacturing jobs 
primarily, and it's very important for Michigan, and we're 
really trying to get this right.
    Ms. Huftalin. First, let me address the Utah Aerospace 
Pathways Program and how that came to be. When we created the 
partnership, we had very little time to move on this. And in 
higher education, it's rare that things move quickly. So this 
is remarkable in the sense that we were put together in about 6 
months and got this thing off the ground.
    But one of the things that was always center to that 
pathway was this idea that students would spend time in the 
industry in that 48-hour paid internship. Paid is important 
because students don't have--a lot of our students, if they're 
27, 28 years old and they're already working in our adult 
pathway that we're creating, that makes that very difficult, 
right?
    So young students in high school starting into that pathway 
will have a paid internship on the floor in Boeing, Hexcel, ATK 
Orbital, and really get to see with the real workers there 
what's going on in that industry, how dynamic that industry is, 
what does a day look like in that field. And we believe that 
kind of active learning, that very hands-on experience is going 
to definitely enhance their learning experience. So that was 
always part of our idea formation.
    The other piece I would ask or answer about your second 
question is that I think you have to be very careful. We have 
program advisory committees that are industry and education 
partners for every discipline. And you need to be, I think, 
mindful of those program advisory committees and the makeup and 
composition of who is on them, so that that's rotating, that 
that's reflecting the new energy of an industry, the up and 
coming innovations in an industry. You get them on the program 
advisory committee rather than people that have been in the 
industry for maybe 20 years and have kind of maybe lost sight 
of some of the advancements, making sure that's a dynamic 
composition so that you're getting the best information about 
your curriculum.
    Mr. Bishop. Very nice. Thank you very much.
    And I'd kind of like to, Mr. Johnson, continue with the 
conversation you were having with Mr. Carter. You were 
emphasizing the importance of partnering with practitioners. 
And I agree with that. And I'm wondering if you could--you were 
starting to talk about it, and I want to make sure that you had 
time to speak about it and talk about the importance and why 
you think it's important to partner with practitioners.
    Mr. Johnson. Well, if you look at the way NCCER programs 
are delivered, they are delivered, you know, obviously at the 
local level by skilled craftspeople who have gone through an 
instructor certification and training program very closely tied 
into construction companies that hire the individuals that go 
through our programs. I don't know of any other way for us to 
do it, quite frankly, than to be closely partnered with the 
practitioners, with the companies, with the individual skilled 
folks.
    Just a note. We have a lot of available jobs in the State 
of Louisiana as well, a lot of industrial expansion going on 
there. I've seen a study from the Louisiana Community and 
Technical College System that says of the tier one jobs, that's 
our five-star and four-star jobs, these are the best jobs 
available in Louisiana, some 15,000 to 20,000 a year for the 
next 5 years, 85 percent of them require something less than a 
4-year college degree.
    Now, all of them require something more than a high school 
diploma, an industry-based certification or associate degree, 
but 85 percent of them require something less than a 4-year 
college degree. So we have to engage those practitioners to 
develop those skills and we're doing that in a significant way.
    Mr. Bishop. Thank you very much for that.
    And I yield back.
    Chairman Rokita. The gentlemen yields back. I thank the 
gentleman.
    Mrs. Davis, you're recognized for 5 minutes.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Appreciate you all being here.
    One of things that you talked about just a few minutes ago 
was sort of that back and forth with industry and the ability 
of instructors, teachers to really get a sense of what's going 
on in the real world and be able to translate that for their 
students.
    I wanted to ask you, though, about the curriculum for CTE 
teachers themselves. You were just talking a little about that. 
You have to know your--if you're teaching a craft, you sure as 
heck want to know how to do that. But are there some other 
attributes and ways of training for--I think, Dr. Johnson, you 
talked about citizenship ready skills.
    What is it that perhaps within this range of classes is 
really required of the instructors themselves, the kind of role 
model that those individuals are? What have you seen that 
perhaps is different, you know, from an English teacher, from a 
history teacher?
    Mr. Johnson. Well, I've said often that you can be the best 
pipe fitter in the world. It doesn't necessarily mean you can 
teach pipe fitting, right? I mean, there are some very specific 
instructional capabilities, communication skills, motivational 
skills, the ability to connect and attach.
    I think if you look at the way the NCCER programs are laid 
out, generally in four levels, if you are in the core 
curriculum level one, the demand on you in terms of your 
overall craft skill maybe is not as high, and so we can make 
some allowances at those levels when we're teaching those at, 
say, the K-12, the secondary level, that maybe that individual 
does not need to be what we would call an A level or journey 
level crafts person.
    But as we get up into those higher levels, those levels 
three and four, particularly in private programs and at the 
community and technical colleges, we need to make sure that 
those individuals have the relevant skills and abilities and 
have been in the industry so that they're attached to what's 
going on.
    Mr. Major. I might add to that just a little bit. We hire 
most of our instructors from industry. And so when they come 
in, we put them through an assessment, like NCCER, in our 
construction trades, to make sure that they have the technical 
knowledge. But we also look for what other employers look for, 
and that's the ability to communicate and work together as a 
team.
    Once they're on our staff and they begin teaching, we also 
put them in the role of an adviser of a career tech student 
organization, and the career tech student organizations are our 
tools to help instill those employability skills to our 
students. We all learn best when we teach. And so as our 
teachers are guiding and being a role model and adviser to 
those organizations, they too are modeling those soft skills.
    Soft skills tend to be a big topic when we have our 
advisory committee meetings because it's the first thing that 
employers want to talk about, is how do we enhance that. And so 
we try to work in combination of providing a good balance 
between the technical, the academic, but also those 
employability skills that students are going to need.
    Mrs. Davis. These are sometimes very diverse populations 
that people are teaching, perhaps not the way that they grew up 
necessarily. And so how is that inculcated? I mean, we talk 
about cultural competency, of course. But what is it that may 
be important even in terms of how we engage, recruit 
individuals as well within these fields? I mean, is that 
working? Are we seeing the diversity that we should have?
    Ms. Huftalin. I might just share that at Salt Lake 
Community College, one of the shifts that we're making, as I'm 
sure many institutions are making, is the shift from this idea 
that the focus is on teaching to that the focus is on learning. 
So that you have a variety of students walking into your 
classroom from very diverse backgrounds, age backgrounds, 
gender, you know, religious backgrounds, and most importantly, 
academic preparedness, right?
    So our faculty, and I would say faculty in CTE and academic 
are really moving into more about how do we assess the learning 
throughout the semester or throughout in short term so that 
we're giving students academic confidence early on. Many of our 
students are at jeopardy for dropping out. They're first 
generation students, they're nervous, they don't think they're 
college material. They need to see early progress, and they 
need to have early wins to see themselves as career ready or a 
college student.
    And so we're working with our faculty to help them. How 
soon can you give students really critical feedback? How do you 
create that feedback so that it's accessible to the student and 
then they can learn from that so that they feel confident and 
they feel like they can persist?
    Mrs. Davis. Yeah. Dr. Major.
    Mr. Major. One other comment that I might add. We have our 
students for 3 hours a day, whether they're a high school 
student or an adult, and they spend more time with our 
instructor than they do with their own families. One of the 
things we really talk about on our campus is culture and 
climate. And students need to know that you care, you care 
about them in their technical studies, you care about them in 
their academic studies, but you also care about them in their 
lives.
    And so you can't measure that, but you can observe that. 
And I can tell you our teachers do a great job of wrapping 
their arms around all of our students to help them succeed.
    Chairman Rokita. Thank you. The gentlelady's time has 
expired.
    I'll now recognize myself for 5 minutes.
    I appreciate everyone's leadership and the testimony and 
trying to encapsulate it all here at the end.
    I guess one question I still have, and then I want to yield 
the remainder of my time to the gentleman from Pennsylvania 
who's going to follow up on the parental engagement centers and 
maybe some other things, is I heard about best practices. I 
heard about things that are going right. I heard about things 
are needed more. Teach the teacher programs and guidance 
counselor education, and that kind of thing. But I'm not 
hearing that Perkins is prohibiting that specifically, right? 
So this is a hearing that's ahead of us writing a bill that's 
going to reauthorize it.
    So I'd be remiss--it's not that I'm looking for more work, 
we have enough problems that present themselves quite fully 
already--but I'd be remiss if I didn't get you all on record to 
say, hey, what's not working in Perkins, or what can be 
changed, maybe the focus on the State plan, or anything, the 
requirements there or the fact that you have to do two State 
plans versus maybe one. Any suggestions? Thirty seconds only 
each, please, if you have anything to add.
    Dr. Huftalin.
    Ms. Huftalin. I would just add that as you're looking at 
any kind of metrics or accountability, that you look at 
consistent metrics across multiple acts. So that right now we 
often have to meet different burdens of proof in terms of our 
accountability using different metrics. And to the extent that 
you could align those so that community colleges--so we are all 
looking at the same things for our different requirements, that 
would be less of a burden on us.
    It would also help us as a community college, is that 
oftentimes we are asked to look at metrics that may be not as 
salient to community colleges as a 4-year institution. So to 
the extent that you can look at completion, that would be 
great.
    Chairman Rokita. Great. Thank you, Doctor.
    Dr. Major.
    Mr. Major. I would continue that discussion in saying that 
I think the Perkins Act needs to continue to focus on high-
quality programs that lead to a recognized outcome, and that in 
order for programs to have access to the funds, that they fall 
within that definition of high quality.
    Chairman Rokita. And who gets to define that?
    Mr. Major. I think that can be defined broadly in the 
legislation, but then also hold the States accountable. The 
delivery systems for career and technical education--
    Chairman Rokita. So the states could define high quality 
individually?
    Mr. Major. Within the guidelines of the overall act.
    Chairman Rokita. And that's okay with you, Dr. Huftalin, 
given your previous comment?
    Ms. Huftalin. Well, I would want met consistent metrics 
being used.
    Chairman Rokita. Does that include definitions?
    Ms. Huftalin. Yes.
    Chairman Rokita. Okay. See, you're making our job harder. I 
love it.
    Dr. Ricks?
    Ms. Ricks. I would say to embed some of the principles and 
practices of Perkins in minority-serving institutions. That 
includes HBCUs, HSIs, and tribal colleges. And also metrics.
    Chairman Rokita. Would you put specifics in writing to us 
after the hearing?
    Ms. Ricks. Absolutely.
    Chairman Rokita. Thank you so much.
    Chairman Rokita. Mr. Johnson, in about 30 seconds.
    Mr. Johnson. Can't improve on what's been said.
    Chairman Rokita. Thank you, Mr. Johnson. You made up for 
going over all those other times. I appreciate it.
    I yield the rest of my 2 minutes, 8 seconds to the 
gentleman from Pennsylvania.
    Mr. Thompson. Mr. Chairman, you are amazing and generous. 
Thank you.
    I just want to note, in terms of I picked up on a new 
terminology from Dr. Ricks, which certainly applies to career 
and technical education, the K through gray. I'm hoping for 
gray. I'm on the losing end of that. But the fact is K through 
gray in terms of career exploration, career preparation, and 
career launching, mobilization, and that's the exciting part 
about career and technical education. It is the life span.
    This committee has done great work. The Workforce 
Innovation and Opportunity Act. We really focused on just 
zeroing in on that early--not the earliest, but the 16, we have 
specific language specifically for 16 to 29, you know, trying 
to help folks break into the workforce through the Workforce 
Investment Act reauthorization that is law today.
    And then with ESEA, I want to come back to the parental or 
the family engagement centers. We have language within the 
Student Success Act. That, again, we have to get ESEA done.
    So if we are successful--when we are successful--looking 
for how do we utilize that as a model to utilize to support 
career and technical education with the family engagement 
centers? Any thoughts and ideas?
    Dr. Huftalin, you talked about emphasizing the salaries, 
the moneys. I think that's a great strategy. Other ideas?
    Ms. Huftalin. One thing I might add is that we are working 
very carefully with the community council in this neighborhood 
where we're hoping to build this new building. And I think to 
the extent that you can get the residents of the neighborhood 
and the community in the space to see how state of the art it's 
going be, to see how exciting the training's going to be, that 
could perhaps lend some support to the parents really 
supporting that for their family.
    Mr. Thompson. Any other strategies come to mind?
    Mr. Major. I think if we can encourage parents to be more 
involved in their student's program of study, starting at the 
earlier grades, so that they're aware of the coursework that 
they're taking and where that coursework might lead them in the 
future, would be helpful.
    Mr. Thompson. Okay. Thank you, Chairman.
    Chairman Rokita. The gentleman's time has expired. The 
gentleman yields back. The gentleman's time has expired.
    I thank the witnesses again for their testimony.
    And, Ms. Fudge, you're recognized for closing remarks.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all so much for being here.
    I have for many years talked about the fact that America 
once again needs to build and make things. We have always been 
the Nation that everyone looked to for quality. And so we need 
people who are skilled to do this work.
    Once we get back to being who we are as a Nation, certainly 
young people will have jobs, and they will see the alternatives 
that you are trying to present.
    So I just hope that you are successful. And I certainly 
hope that this Congress moves forward to reauthorize this act 
and to once again understand who we are as a Nation, that we 
are the best, and that we need to continue to be the best by 
making sure we have a workforce that is able to keep us on the 
top.
    Thank you very much, Mr. Chairman.
    Chairman Rokita. I thank the gentlelady, and I echo the 
gentlelady's comments.
    In closing, I want to thank our witnesses again. And I 
appreciate, I really do, your leadership and what you're doing 
for Americans' future, our best asset, our children and our 
students.
    And with that, seeing no further business before the 
committee, this hearing adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                 [all]



</pre></body></html>
